APRIL 27, 2009
  AUDIT REPORT




                                                      OFFICE OF AUDITS




    NASA’S PROCESSES FOR PROVIDING PERSONAL
       IDENTITY VERIFICATION (PIV) CARDS
        WERE NOT COMPLETELY EFFECTIVE
       IN MEETING FEDERAL REQUIREMENTS




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-09-015 (ASSIGNMENT NO. A-08-009-00)
Final report released by:



       /s /
Evelyn R. Klemstine
Assistant Inspector General for Auditing




Acronyms

AIMO         Agency Identity Management Official
ATO          Authorization to Operate
CBACS        Common Badging and Access Control System
CIO          Chief Information Officer
DAA          Designated Accreditation Authority
DATO         Denial of Authorization to Operate
FIPS         Federal Information Processing Standards
HSPD-12      Homeland Security Presidential Directive 12
IATO         Interim Authorization to Operate
IT           Information Technology
NID          NASA Interim Directive
NIST         National Institute of Standards and Technology
NPD          NASA Policy Directive
NPR          NASA Procedural Requirements
OIMO         Organization Identity Management Official
OMB          Office of Management and Budget
OSPP         Office of Security and Program Protection
PIV          Personal Identity Verification
SATERN       System for Administration, Training, and Educational Resources for NASA
SP           Special Publication


                                                                  REPORT No. IG-09-015
APRIL 27, 2009




                                                                                             OVERVIEW

        NASA’S PROCESSES FOR PROVIDING PERSONAL IDENTITY
         VERIFICATION (PIV) CARDS WERE NOT COMPLETELY
           EFFECTIVE IN MEETING FEDERAL REQUIREMENTS

                                                                                               The Issue

  On August 27, 2004, the President signed Homeland Security Presidential Directive 12
  (HSPD-12), “Policy for a Common Identification Standard for Federal Employees and
  Contractors.” HSPD-12 mandated that all Federal agencies develop and deploy an
  identification verification system to provide uniform employee and contractor personal
  identity verification (PIV) credentials that could be used reciprocally among all Federal
  Government agencies. To support reciprocity, the National Institute of Standards and
  Technology (NIST) developed a formal accreditation process for establishing the
  reliability of issuers of PIV credentials. HSPD-12 guidance states the PIV credentials are
  to be issued only by providers whose reliability has been verified by an official
  assessment and accreditation process and that all Federal agencies perform background
  investigations and begin issuing HSPD-12 compliant PIV cards to employees and
  contractors by October 2007.

  Before the enactment of HSPD-12, NASA had already begun developing an Agency-
  wide common badging and access control system (CBACS). To comply with HSPD-12,
  NASA decided to integrate HSPD-12 requirements into the Agency’s ongoing common
  badging and access control efforts. In July 2006, NASA established an HSPD-12
  implementation office to coordinate the integration effort. We conducted this audit to
  evaluate the effectiveness of NASA’s processes for developing and issuing HSPD-12
  compliant PIV cards. We gathered data and information from all NASA locations 1 on
  the processes used to request, sponsor, authorize, and issue PIV cards. Details of the
  audit’s scope and methodology are in Appendix A.

                                                                                                   Results

  As of January 9, 2009, NASA had issued more than 70,000 PIV cards to staff and
  contractors, more than 98 percent of the PIV cards NASA planned to issue, from a PIV
  card issuer that had not been accredited because NASA did not fully comply with Federal
  guidance. While NASA properly assessed the PIV card issuer for satisfaction of Federal
  requirements at both organization and facility levels, found deficiencies, and developed a

  1
      The Jet Propulsion Laboratory was not included in our audit because of pending litigation related to the
      gathering of PIV data.


REPORT No. IG-09-015
                                                                                          OVERVIEW



     corrective action plan in accordance with Federal guidance, the Agency did not monitor
     corrective actions to ensure that identified deficiencies were corrected nor initiate timely
     reassessment. If the reassessment of the PIV card issuer reveals that significant
     deficiencies continue to exist and those deficiencies affect the integrity of the PIV cards,
     NASA could be required to discontinue PIV card issuer operations and reissue its PIV
     cards, which we estimate could cost a minimum of $1 million.

     NASA’s noncompliance with Federal guidance resulted from the lack of a project
     management plan for the Agency’s transition to HSPD-12 compliant PIV cards. For
     example, NASA did not establish an implementation office to plan and coordinate project
     integration until July 2006—2 years after HSPD-12 was signed and 3 months before the
     deadline for agencies to begin issuing HSPD-12 compliant identity cards. Also, NASA
     did not comply with its own policy on incorporating new requirements into ongoing
     projects nor conduct a gap analysis to ensure that the ongoing common badging and
     access control projects incorporated HSPD-12 requirements. In an effort to meet
     established deadlines, NASA implemented processes and systems that had not been
     adequately planned and, as a result, developed the system for producing PIV cards but
     did not complete the accreditation process for ensuring that the system subcomponents
     met Federal requirements for HSPD-12.

     Although we did not identify any instances of PIV cards being issued to unauthorized
     individuals, we did find that NASA did not fully develop internal controls needed to
     efficiently and effectively implement HSPD-12. Specifically, we found that NASA did
     not establish sufficient controls to ensure that personnel assigned PIV roles fulfilled
     training requirements before performing PIV duties and to ensure that personnel used
     consistent methods for issuing temporary credentials to non-NASA Federal employees.
     In addition, NASA’s PIV system processes did not provide a comprehensive audit trail
     for identifying errors and irregularities. If the deficiencies identified are not corrected,
     the risk of NASA issuing PIV cards to individuals who have no legitimate need to access
     NASA’s facilities or systems could be increased.

     Management Action

     During the audit, NASA management took actions to address our preliminary findings
     that PIV card issuer oversight responsibilities were not appropriately safeguarded in
     accordance with Federal guidance and that internal controls were insufficient to prevent
     one individual from performing both sponsoring and authorizing functions of issuing a
     PIV card. On January 12, 2009, the Senior Agency Official for HSPD-12 reassigned the
     PIV card issuer oversight roles to two individuals. At the two Centers where one
     individual both sponsored and authorized the issuance of a PIV card, both Centers
     reprocessed those PIV card requests to comply with the separation of duties requirement
     and PIV officials upgraded the PIV system adding controls to prevent one individual
     from performing conflicting PIV duties. Therefore, we did not include recommendations
     to further address PIV card issuer oversight responsibilities.


ii                                                                           REPORT No. IG-09-015
OVERVIEW



  We do recommend, however, that the Assistant Administrator for the Office of Security
  and Program Protection (1) determine if the designated accreditation authority for the
  PIV card issuer should issue a denial of authorization to operate if subsequent
  reassessment results determine that significant deficiencies for the PIV card issuer
  continue to exist.

  We also recommend that, for future information technology (IT) projects, the Chief
  Information Officer and the Assistant Administrator for the Office of Security and
  Program Protection (2) follow Agency procedural requirements to plan and manage the
  development of IT projects and (3) require system owners to conduct and document a gap
  analysis when Federal directives and requirements impact IT project development.

  We further recommend that the Assistant Administrator for the Office of Security and
  Program Protection (4) notify all personnel involved in the PIV process of the
  requirement to complete training prior to performing their PIV duties and add the training
  requirement to the individuals’ NASA learning plan, (5) develop and implement NASA
  policies for issuing temporary badges and HSPD-12 compliant PIV cards to non-NASA
  Federal employees assigned to NASA locations and establish and include appropriate
  expiration date guidelines for temporary badges, and (6) modify the PIV system to
  increase data visibility by modifying the system and incorporating a single-audit
  infrastructure that pulls the necessary audit trail data from the PIV system
  subcomponents.

  In response to a draft of this report issued March 20, 2009, the Assistant Administrator
  for the Office of Security and Program Protection and the Chief Information Officer
  concurred with our recommendations. However, management’s comments on
  Recommendations 2 and 3 were not responsive because they did not detail the actions the
  Agency would take to ensure future IT projects would be planned and managed in
  accordance with NASA project management policy; nor did the comments provide
  details on how the Agency plans to ensure that a gap analysis is conducted and
  documented when changes in Federal directives and requirements have an impact on
  ongoing IT projects. Therefore, Recommendations 2 and 3 remain unresolved. We
  request that the Assistant Administrator for the Office of Security and Program
  Protection and the Chief Information Officer provide additional comments in response to
  this final report by May 26, 2009.




REPORT No. IG-09-015                                                                           iii
APRIL 27, 2009




                                                        CONTENTS


  INTRODUCTION
     Background __________________________________________ 1
     Objectives ___________________________________________ 3

  RESULTS
     Finding A: Noncompliance with Federal Guidance Could
                 Compromise Issuance of NASA’s PIV Cards ________ 4
     Finding B: Lack of Internal Controls Hampered Effective
                 HSPD-12 Implementation_____________________ 13
     Finding C: NASA Responds to Issues Related to
                 Role Separations____________________________ 19

  APPENDIX A
     Scope and Methodology _______________________________ 23
     Review of Internal Controls _____________________________ 24
     Prior Coverage_______________________________________ 24

  APPENDIX B
     Management Comments _______________________________ 25

  APPENDIX C
     Report Distribution ___________________________________ 28




REPORT No. IG-09-015
APRIL 27, 2009




                                                                              INTRODUCTION


Background

  In 2002, NASA’s Office of Security and Program Protection (OSPP) created the Smart
  Card Project and the Identity Management System (IDMS) to develop a common
  credential for granting access to NASA’s physical and logical resources. As part of the
  development process, OSPP surveyed all NASA locations and found that each location
  had a different access control system. Thus, in 2004, OSPP and the NASA Chief
  Information Officer (CIO) determined that NASA needed a common badging and access
  control system (CBACS), and the Smart Card Project evolved into the CBACS project.
  As described on the NASA CIO Web site, CBACS is “a system of records to document,
  track, manage, analyze, produce a NASA badge that is verifiable, identifiable, durable
  and can be used to access NASA resources (physical and logical).” CBACS uses Central
  Card Management System and IDMS for identity management and issuance of smart
  cards to all NASA civil servants, contractors, foreign nationals, and visitors. The system
  also uses Enterprise Physical Access Control System (E-PACS) and the physical smart
  card reader.

  On August 27, 2004, the President signed HSPD-12, which requires all Federal agencies
  to develop and deploy a standard, common, and reliable identification verification system
  for employees and contractors to use Government-wide to increase the security of
  Federal facilities and information systems. The implementation memorandum, issued by
  the Office of Management and Budget (OMB) on August 5, 2005, 2 tasked the
  Department of Commerce, through NIST, with developing standards for secure and
  reliable credentials for Government employees and contractors. The memorandum cited
  NIST’s Federal Information Processing Standards (FIPS) 201 as the standard guidance
  for implementing the directive. FIPS 201-1, “Personal Identity Verification (PIV) of
  Federal Employees and Contractors,” March 2006, defines the technical requirements for
  the common credential as
        •   issued based on sound criteria for verifying an individual employee’s identity;
        •   resistant to identity fraud, tampering, counterfeiting, and terrorist exploitation;
        •   rapidly authenticated electronically; and
        •   issued only by providers whose reliability has been established by an official
            accreditation process.



  2
      OMB, “Implementation of Homeland Security Presidential Directive (HSPD)-12 – Policy for a Common
      Identification Standard for Federal Employees and Contractors” (M-05-24, August 5, 2005).


REPORT NO. IG-09-015                                                                                     1
                                                                                                   INTRODUCTION



    NIST also developed Special Publication (SP) 800-79, 3 “Guidelines for the Certification
    and Accreditation of PIV Card Issuing Organizations,” July 2005. In June 2008, NIST
    updated the publication and issued it as SP 800-79-1, “Guidelines for the Accreditation of
    Personal Identity Verification Card Issuers” to outline the requirements for assessing and
    accrediting providers of HSPD-12-compliant identification cards. NIST SP 800-79-1 also
    identifies the roles and responsibilities for ensuring compliance with HSPD-12
    requirements:

           •   Senior Authorizing Official (SAO) is responsible for all PIV card issuer 4
               operations, has budgetary control, provides oversight, develops policy, and has
               authority over all functions and services provided by the PIV card issuer.
           •   Designated Accreditation Authority (DAA) has the authority to review all
               assessments of a PIV card issuer and its facilities and to accredit the PIV card
               issuer as required by HSPD-12. Through accreditation, the DAA accepts
               responsibility for the operation of the PIV card issuer at an acceptable level of
               risk to the organization. The SAO can also fulfill the role of the DAA.
           •   Organization Identity Management Official (OIMO) (at NASA, Agency Identity
               Management Official or AIMO) is responsible for implementing policies of the
               organization, assuring that all specified procedures of the PIV card issuer are being
               performed reliably, and providing guidance and assistance to the PIV card issuer
               facilities. The AIMO implements and manages the PIV card issuer operations plan;
               ensures that all PIV card issuer roles are filled with capable, trustworthy,
               knowledgeable, and trained staff; makes certain that all PIV card issuer services,
               equipment, and processes meet FIPS 201-1 requirements; monitors and coordinates
               activities with PIV card issuer facility manager(s); and supports the accreditation
               process. NIST SP 800-79-1 states that the AIMO cannot fulfill the role of the
               DAA.

    NASA management decided that to comply with the presidential mandate to develop a
    reliable and secure credential, NASA would incorporate the HSPD-12 and FIPS 201
    requirements into the development of CBACS and other ongoing projects. Development
    of the NASA PIV system to implement HSPD-12 requirements was a collaborative effort
    between OSPP, the NASA CIO, and the Marshall Space Flight Center (Marshall) CIO
    who was responsible for developing the system. In July 2006, NASA issued Program
    Decision Memorandum Number 28, establishing an Agency-level HSPD-12 Project
    Office tasked with determining Agency requirements for, and managing implementation
    of, HSPD-12. The project office reported directly to the Deputy Administrator on a
    monthly basis. The memorandum also stated that implementing HSPD-12 requirements,
    estimated to cost between $112 and $160 million, would be funded from existing Agency
    institutional and program budgets. On May 24, 2007, NASA issued NASA Interim

    3
        In revising SP 800-79 to SP 800-79-1, the title wording changed from certification and accreditation of
        the PIV card issuer to assessment and accreditation of the PIV card issuer.
    4
        NIST SP 800-79-1 uses the acronym “PCI” rather than PIV card issuer, the term used in this report.


2                                                                                         REPORT NO. IG-09-015
INTRODUCTION



  Directive (NID), “Personal Identity Verification (PIV) Policy and Procedures,” to
  augment NASA Procedural Requirements (NPR) 1600.1, “NASA Security Program
  Procedural Requirements,” November 3, 2004, which establishes the policy for creating
  and issuing federally compliant credentials. As of January 9, 2009, NASA had issued
  72,024 PIV cards (about 98.5 percent of the total number of cards the Agency intended to
  issue for employees and contractors).

  NASA’s PIV system consists of several major components including IdMAX, the
  component that manages information flow and process status among all components and
  maintains the state of the entire PIV card process. The PIV system uses other interrelated
  NASA systems including CBACS, the Federal Personnel Payroll System, and the
  Workforce Transformation Tracking System. The PIV system also uses data from the
  Office of Personnel Management’s Electronic Questionnaire for Investigations
  Processing and Personnel Investigations Processing System.

  The architecture to support logical access controls of NASA systems is still evolving.
  Generally, logical access allows authorized employees to access NASA resources as
  determined necessary by the appropriate system and network managers. At some point in
  the future, a NASA identification badge holder’s information will be updated to include
  access control information that can be transmitted to the NASA server for authentication
  and active directory services. When a user wants to access any protected logical
  resource—including facilities or computers—the user will insert his/her badge and enter
  the associated personal identification number. Then the protected resource verifies the
  user’s identity on the badge, checks for revocation, and consults the appropriate data
  store or directory service to determine whether to allow the badge holder access to the
  logical resource.


Objectives

  The overall objective was to evaluate the effectiveness of NASA’s processes for
  developing and issuing HSPD-12 compliant PIV cards. Specifically, we evaluated the
      •   adequacy of NASA’s plans for managing the transition to PIV cards that are
          compliant with HSPD-12;
      •   assessment and accreditation of the PIV card issuer; and
      •   processes for issuance and maintenance of PIV cards.

  We also reviewed internal controls as they relate to the overall objective. See
  Appendix A for details of the audit’s scope and methodology, our review of internal
  controls, and a list of prior audit coverage.




REPORT NO. IG-09-015                                                                           3
                                                                                         RESULTS




                                         FINDING A: NONCOMPLIANCE WITH
                                                FEDERAL GUIDANCE COULD
                                                COMPROMISE ISSUANCE OF
                                                      NASA’S PIV CARDS

           NASA managers did not follow NIST guidance and interim authorization to operate
           (IATO) requirements for assessing and accrediting the PIV card issuer. Specifically,
           NASA did not monitor deficiencies found during the initial PIV card issuer
           assessment and did not initiate a timely reassessment to accredit the card issuer.
           Instead, the Agency issued the PIV card issuer a yearlong IATO and two consecutive
           extensions to the IATO, allowing the card issuer to operate without being accredited.
           NASA did not comply with Federal guidance because of the lack of a project
           management plan to effectively prepare for implementing HSPD-12 credentialing
           requirements. NASA did not develop an overall implementation plan nor conduct a
           gap analysis to determine what requirements CBACS and other ongoing projects
           lacked that HSPD-12 mandated. In addition, NASA management directed
           implementation staff to meet the OMB deadline to begin issuing HSPD-12 compliant
           PIV cards. As a result, the Agency issued 98.5 percent of the PIV cards it expected
           to issue from a card issuer that had not been deemed reliable, as required by NIST.
           NASA could be required to discontinue PIV card issuer operations and reissue its
           PIV cards, which could cost NASA about $1 million just for the card stock if the
           reassessment of the PIV card issuer reveals that significant deficiencies continue to
           exist and those deficiencies affect the integrity of the PIV cards.


Federal and NASA Guidance

    Federal criteria specific to implementing HSPD-12 requirements is provided in
    FIPS 201-1, which focuses on the architecture and technical requirements for a common
    identification standard for Federal employees and contractors, and NIST SP 800-79-1,
    which focuses on assessment and accreditation of the PIV card issuer. Assessment is the
    process of gathering evidence of a PIV card issuer’s satisfaction of the requirements of
    FIPS 201-1, at both organizational and facility levels. Accreditation is the decision to
    authorize the operation of a PIV card issuer once it has been established that the PIV card
    issuer has met the requirements of FIPS 201-1 and that risks regarding security and
    privacy are acceptable. NIST SP 800-79-1 provides a methodology for verifying that
    issuers of PIV cards are adhering to standards and implementation directives developed
    under HSPD-12 that involves drawing the PIV card issuer’s accreditation boundary,
    evaluating the findings of all reliability assessments, and making a proper decision for
    accrediting the PIV card issuer. NIST SP 800-79-1 further notes that careful planning,
    preparation, and commitment of time, energy, and resources are required for the




4                                                                          REPORT NO. IG-09-015
RESULTS



  assessment and accreditation, which involves agencies in creating the needed roles,
  assigning responsibilities, and developing an acceptable operations plan.

  NASA identifies planning as a necessary structural element of project development.
  NASA Policy Directive (NPD) 2800.1, “Managing Information Technology,” March 23,
  1998, notes that NASA’s policy is to plan for, acquire, manage, and use IT to accomplish
  NASA’s missions and programs efficiently, effectively, and securely. The policy also
  states that NASA should make measurable improvements by planning, budgeting,
  acquiring, and evaluating the performance of IT investments. NPR 2800.1, “Managing
  Information Technology,” September 17, 1998, also establishes policies for planning,
  acquiring, managing, and using IT to accomplish NASA’s missions and programs.
  NPR 7120.5C, 5 “NASA Program and Project Management Processes and Requirements,”
  March 22, 2005, defines a project as a specific investment identified in a program plan
  having defined goals, objectives, requirements, and life-cycle costs. It also addresses
  updating plans and documents when new content is added.


NASA Not in Full Compliance with NIST Assessment and
 Accreditation Procedures

  NASA did not fully comply with NIST requirements for accrediting the PIV card issuer.
  Specifically, NASA properly conducted an assessment of the PIV card issuer, found
  deficiencies, and developed a corrective action plan 11 months after the HSPD-12
  implementation office was established and 4 months before the Agency was to begin
  issuing HSPD-12 compliant PIV cards. However, NASA did not monitor the corrective
  action plan to ensure that the deficiencies identified were corrected, as required by
  Federal guidance and the IATO letter, and did not initiate a timely reassessment to
  accredit the card issuer, as required by Federal guidance.

  NASA’s Independent Program Assessment Office conducted the first assessment of the
  PIV card issuer in April and May of 2007. That initial assessment cost NASA
  approximately $110,000 and identified 78 deficiencies—60 low risk and 18 medium risk
  (medium risk deficiencies included inadequate documentation supporting completed
  training, inadequate procedures for assessing applicants, and a lack of an accreditation
  letter for the PIV card issuer’s information infrastructure). In accordance with
  NIST SP 800-79, the AIMO developed a corrective action plan to resolve the
  deficiencies.

  NIST SP 800-79-1 states that the DAA may issue an authorization to operate (ATO) for
  the card issuer if the assessment results show that the card issuer conformed with
  FIPS 201-1. The DAA can only grant an ATO to a card issuer if there are no limitations

  5
      NASA issued NPR 7120.7, “NASA Information Technology and Institutional Infrastructure Program and
      Project Management Requirements,” November 3, 2008, and directed that NPR 7120.7 be used for non-
      space flight programs and projects.


REPORT NO. IG-09-015                                                                                      5
                                                                                         RESULTS



    or restrictions imposed on any of its facilities included in the accreditation boundary.
    The DAA may issue an IATO if the DAA considers the discrepancies found during the
    assessment to be significant but the card issuer can address the deficiencies in a timely
    manner and there is an overarching necessity to allow the card issuer to operate. The
    card issuer must document the deficiencies in a corrective action plan so it can correct
    them during the accreditation process. Based on the independent assessment report and
    the corrective action plan, the DAA issued the PIV card issuer a yearlong IATO on
    June 12, 2007.

    Terms and conditions the DAA stipulated in the IATO accreditation letter were that the
    PIV card issuer should only operate if NASA rigorously monitored the reliability of the
    PIV card operations and submitted quarterly reports detailing the status of the
    deficiencies listed on the corrective action plan. The AIMO stated that the corrective
    action plan was not monitored because he felt that the assessment that identified the
    deficiencies was inadequate. Monitoring and reporting on the deficiencies is intended to
    ensure that the deficiencies receive the proper visibility, prioritization, and resources
    necessary to resolve the issues and avoid problems that could have an adverse impact on
    NASA’s ability to achieve full PIV card issuer accreditation.

    Terms and Conditions of IATO Were Not Followed. The AIMO did not monitor
    actions taken to correct reported deficiencies and did not provide updates on the status of
    deficiencies identified during the assessment to ensure they were corrected, as required
    by the IATO and NIST. When NASA did not initiate a timely reassessment to accredit
    the card issuer, as required by NIST, the Agency issued two consecutive extensions to the
    IATO.

    NASA’s PIV card issuer became operational in January 2008 while under an IATO. In
    March 2008, 9 months after the first IATO was granted, the AIMO, through the
    Independent Program Assessment Office, initiated a limited PIV card issuer assessment,
    which resulted in the DAA extending the IATO to October 1, 2008—the first extension
    of the IATO. During this extension, NIST issued SP 800-79-1, the update, in June 2008.
    This revised document provided the methodology for assessing and accrediting PIV card
    issuers and was effective immediately upon issuance. Citing the issuance of revised
    guidance, the HSPD-12 Project Director determined that NASA would initiate
    reassessment of the PIV card issuer under the revised policy. In October 2008, the
    certification agent for the card issuer was preparing a plan for reassessing the PIV card
    issuer. The agent planned to conduct the reassessment at each NASA location but
    acknowledged that availability of funding would dictate how many locations would be
    included in the reassessment. The AIMO and the certification agent stated that because
    NIST had issued the revised policy for assessing PIV card issuers, the prior assessment
    results would not be used in the reassessment. However, we compared NIST SP 800-79
    to NIST SP 800-79-1 and found that the major categories of requirements NASA had
    been deficient in were still required under the revised policy. Even though NASA
    personnel had not adhered to the conditions stipulated in the previous IATO letters, the



6                                                                          REPORT NO. IG-09-015
RESULTS



  DAA extended the IATO a third time until March 1, 2009 (second extension under the
  June 2008-revised NIST policy).

  The initial assessment of the NASA PIV card issuer cost about $110,000. As of
  November 2008, NASA officials could not provide the cost for reassessing the PIV card
  issuer under the June 2008 NIST requirements because the certification agent was in the
  process of developing the reassessment plan. Since the AIMO did not monitor the
  progress toward correcting the deficiencies identified on the initial corrective action plan,
  NASA could incur costs associated with re-identifying the same deficiencies reported
  during the prior assessment.

  We interviewed NASA and contractor staff and reviewed the IATO and PIV card issuer
  supporting documentation to determine if NASA personnel complied with the IATO and
  NIST policy. We found that NASA personnel did not update the corrective action plan
  or operations plan to reflect the current state of the PIV card issuer and that numerous
  technical deficiencies had not been reported or resolved.

  NASA could also incur additional costs if the reassessment for accreditation does not
  successfully meet Federal requirements. Federal policy states that an agency can receive
  three IATOs to operate its PIV card issuer—an initial IATO and two additional
  consecutive IATOs—but failure to correct deficiencies found in the PIV card issuer after
  the expiration of the second consecutive IATO must result in an issuance of a denial of
  authorization to operate (DATO). NASA’s noncompliance with the terms and conditions
  of the IATO and with NIST SP 800-79-1 increases the risk that the PIV card issuer may
  not be deemed reliable or capable of ensuring it enrolled and issued PIV cards only to
  authorized applicants. NASA is currently under its third IATO extension (second
  extension under NIST SP 800-79-1). If NASA does not adequately correct the
  deficiencies found in the card issuer operation, the DAA would have to issue a DATO in
  accordance with Federal policy. A DATO would mean a cessation of operation for the
  PIV card issuer and the possibility that NASA could be required to reissue its PIV cards
  after the card issuer is accredited, which could result in NASA incurring costs to reissue
  all PIV cards issued by the PIV card issuer.

  Initiation of Reassessment for Accreditation Was Not Timely. The IATO states that
  the PIV card issuer is not considered accredited during the IATO period. NASA officials
  did not seek to reassess the PIV card issuer until March 2008—9 months after the DAA
  granted the first IATO. The original assessment was conducted while NIST SP 800-79
  (the original version) was in effect, and NIST SP 800-79 states that an IATO is a
  temporary authorization to operate under specific terms and conditions and reassessment
  for accreditation should be initiated within 3 months of the date of the IATO.

  The PIV card issuer began issuing PIV cards before an independent assessment verified
  the reliability of the card issuer. HSPD-12 requires that the card issuer be accredited to
  ensure that PIV cards are issued from a reliable card issuer. As of January 9, 2009,
  NASA had issued 72,024 (98.5 percent of the badges it expected to issue) PIV cards from


REPORT NO. IG-09-015                                                                              7
                                                                                       RESULTS



    a card issuer that had not been accredited. Therefore, NASA runs the risk that the new
    assessment could disclose significant deficiencies that could eventually lead to a DATO
    and could cause NASA to spend, at minimum, $1 million if the Agency has to reissue
    PIV cards to its employees and contractors.

Noncompliance Caused by Lack of a Project Management Plan for
  HSPD-12 Implementation

    HSPD-12 was signed in August 2004. However, NASA officials did not establish a
    project office with the authority to oversee HSPD-12 implementation for almost 2 years.
    In July 2006, NASA issued a memorandum establishing an Agency-level HSPD-12
    project office responsible for identifying requirements and managing NASA’s
    implementation of HSPD-12 requirements and appointed the HSPD-12 Project Director
    in August 2006. (See the Figure for a timeline of events.) The Project Director, who
    reported directly to the Deputy Administrator on a monthly basis and when requested,
    assembled a team consisting of HSPD-12 managers from each Center, appointed by each
    Center Director including Headquarters, and a member from each of the four main
    Mission Support Offices: Human Capital Management, Office of the CIO, OSPP, and
    Procurement.

    Throughout the implementation processes, the Project Director expressed concerns about
    the lack of a project management plan to incorporate HSPD-12 and Federal requirements
    into ongoing projects, including CBACS. Those concerns, documented in monthly
    updates sent to the Deputy Administrator, noted the lack of

       •   a project management plan integrating the development projects that
           would be used to plan, execute, control changes, govern, monitor, and
           control the project;
       •   an integrated project schedule that would integrate the schedules of the
           subprojects and would further integrate the Center, program, and project
           implementation; and
       •   an integrated architecture that shows how all the pieces fit together
           technically and work flows for the process itself.




8                                                                          REPORT NO. IG-09-015
                       Figure. Timeline of NASA’s implementation of PIV cards.
                                                                                 RESULTS




REPORT NO. IG-09-015
9
                                                                                          RESULTS



     Despite the Project Director’s concerns, NASA did not develop a project management
     plan; it was the AIMO’s position that the PIV system was not a project but involved the
     implementation of several projects that were already in development. Thus, NASA
     managers continued to reference CBACS project management guidelines for developing
     subcomponents of the PIV system (developed before HSPD-12 was mandated) and did
     not update project-related documents to include HSPD-12 and FIPS requirements.
     However, NPR 7120.5C, addresses updating plans and documents when new content is
     added (e.g., the creation of a new project) and notes the need to evaluate modifications of
     the program plan due to changes in projects and activities within the program.

     The HSPD-12 Project Director focused on meeting the OMB timelines and did not
     adhere to NASA’s project management policy that required the Agency to update project
     plans. Thus, NASA focused its resources on implementing systems that would evolve
     into the PIV system. Within the first 2 months of being named HSPD-12 Project
     Director, the Director expressed concerns about the Agency’s implementation approach,
     reporting to the Deputy Administrator that there was no integrated architecture to ensure
     that NASA personnel incorporated the Federal requirements into developing systems and
     that these issues could impact NASA’s ability to meet the OMB deadline of October
     2007.

     Gap Analysis Not Conducted. Although the Project Director’s position was that the
     PIV system involved implementing several projects already in development, NASA did
     not conduct or document a formal gap analysis to identify differences between those
     projects and FIPS 201-1 requirements. Gap analysis is defined as a technique for
     determining the steps to be taken in moving from a current state to a desired future-state.
     In IT systems, it begins with first identifying the system requirements of the present
     system(s) and comparing those requirements to requirements needed to achieve the
     desired results, thus highlighting the gaps in system requirements and identifying the
     components needed to achieve the desired end-state. NASA’s project management
     policy had not required a formal gap analysis, however, NASA management has
     recognized the importance of identifying gaps between the systems NASA was using and
     those NASA was developing. In 2006, the NASA Deputy Administrator tasked program
     personnel to conduct a gap analysis on NASA’s Integrated Enterprise Management
     Program to identify and characterize where management and business systems were not
     meeting the needs of the system users. However, HSPD-12 implementation personnel
     did not perform a gap analysis to identify differences between CBACS and other ongoing
     projects and HSPD-12 requirements; therefore, NASA had no formal means to
     demonstrate that its PIV system subcomponents would meet Federal requirements.




10                                                                          REPORT NO. IG-09-015
RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. The Assistant Administrator for the Office of Security and Program
Protection should determine if the DAA for NASA’s PIV card issuer should issue a DATO
if subsequent reassessment results determine that significant deficiencies for PIV card issuer
continue to exist.

   Management’s Response. On April 16, 2009, the Designated Approving Authority for
   NASA’s PIV card issuer processes issued an authority to operate decision. As part of the
   decision, the Approving Authority directed the execution of a corrective action plan to
   address deficiencies noted during the PIV card issuer assessment.

   Evaluation of Management’s Response. The PIV card issuer was undergoing
   reassessment in March 2009 when we recommended that the DAA determine whether a
   DATO should be issued. Based on the reassessment results, the DAA issued an
   authorization to operate the PIV card issuer on April 16, 2009. Therefore, we consider
   the recommendation to be closed for reporting purposes.

Recommendation 2. The NASA Chief Information Officer and the Assistant Administrator
for the Office of Security and Program Protection should follow Agency policy documented
in NPR 2800.1 and NPR 7120.7 to plan and manage future development of IT projects.

   Management’s Response. The Office of the Chief Information Officer and the Office of
   Security and Program Protection concurred with the recommendation and stated that
   component projects that comprised the HSPD-12 were all planned and managed
   according to project management policy.

   Evaluation of Management’s Response. While NASA OCIO and OSPP concurred
   with the recommendation, the comments were not responsive. As discussed in the report,
   NASA had not updated ongoing project related documents to include HSPD-12
   requirements. Management’s response did not indicate how OCIO and OSPP plan to
   ensure that future IT development projects are planned and managed in accordance with
   NPR 2800.1 and NPR 7120.7. We consider the recommendation to be unresolved and
   request that the Assistant Administrator, Office of Security and Program Protection, and
   the NASA Chief Information Officer provide comments to this final report.

Recommendation 3. The NASA Chief Information Officer and the Assistant Administrator
for the Office of Security and Program Protection should require system owners to conduct
and document a gap analysis when Federal directives and requirements impact ongoing IT
project development.

   Management’s Response. The Office of the Chief Information Officer and the Office of
   Security and Program Protection concurred with the recommendation and stated that a
   gap analysis of projects in development was conducted in the form of a business


REPORT NO. IG-09-015                                                                             11
                                                                                      RESULTS



     architecture, which documented the overall framework and enabled detailed analysis of
     the as-is versus the to-be states.

     Evaluation of Management’s Response. While OCIO and OSPP concurred with the
     recommendation, the comments were not responsive. The business architecture provided
     to OIG during the audit did show the “as is” and “to be” framework, but it did not show
     the gaps, in terms of the actual requirements and components, between what NASA was
     developing and what was needed to meet the HSPD-12 mandate. Management’s
     response did not indicate how OCIO and OSPP plan to ensure that system owners
     conduct and document a gap analysis when Federal directives and requirements impact
     ongoing IT development projects. We consider the recommendation to be unresolved
     and request that the OSPP Assistant Administrator and the NASA CIO provide
     comments to this final report.




12                                                                       REPORT NO. IG-09-015
RESULTS




                                              FINDING B: LACK OF INTERNAL
                                                      CONTROLS HAMPERED
                                                      EFFECTIVE HSPD-12
                                                          IMPLEMENTATION

          Although we did not identify any instances of PIV cards being issued to
          unauthorized individuals, NASA did not fully develop and employ sufficient internal
          controls to effectively implement HSPD-12 requirements. Specifically, the Agency
          did not ensure that NASA managers enforced PIV policies or procedures that
          required PIV personnel to receive training before performing assigned duties, or that
          NASA’s policies were consistent for issuing temporary badges. These conditions
          occurred because personnel assigned PIV roles were unaware of the training
          requirement, and NASA had not developed and implemented policies for issuing
          temporary badges and HSPD-12 compliant PIV cards to non-NASA Federal
          employees. Also, NASA did not ensure that the PIV system provided a
          comprehensive audit trail to identify errors and irregularities. This condition
          occurred because NASA relied on audit capabilities in PIV system subcomponents
          instead of designing a single-audit capability to provide an audit trail for status
          requests in the PIV system. As a result of a lack of internal controls and inadequate
          system processes, the risk of issuing PIV cards to individuals who have not met
          security requirements or have no legitimate need to access NASA facilities or
          systems could be increased.


Federal and NASA Regulations

  Federal agencies are responsible for developing and maintaining internal control
  activities that comply with OMB Circular A-123, “Management’s Responsibility for
  Internal Control” (effective fiscal year 2006). NPD 1200.1E, “NASA Internal Control,”
  July 21, 2008, provides NASA’s internal control policy for complying with OMB
  Circular A-123.

  FIPS 201-1 defines the PIV system Federal agencies are required to use to create
  common identification credentials, verify identity, and grant access to federally
  controlled facilities and information systems. The NASA Interim Directive (NID),
  “Personal Identity Verification (PIV) Policy and Procedures,” May 24, 2007, implements
  FIPS 201-1 requirements and establishes NASA-wide policy for the creation and
  issuance of Federal credentials. NASA’s process for issuing PIV cards involves having
  authorized personnel, using computerized systems, verify (1) an individual’s identity has
  been authenticated (2) a background investigation was initiated, and (3) the individual is
  the intended recipient of the Federal credential.




REPORT NO. IG-09-015                                                                           13
                                                                                                  RESULTS



     FIPS 201-1 also requires that the PIV process include an audit trail that documents all
     actions taken for approving or denying requests for a PIV card. This audit trail is a
     critical component of the chain of trust for issuance and management of PIV cards.


Improved Internal Controls Needed for Training and Issuance of
  Temporary Badges

     Training for PIV Personnel. Section 7 of the NID states that individuals designated for
     the roles require training and that for personnel involved in the PIV process, training will
     be provided. However, while the policy states that the individuals require training, it
     does not specifically state that the training must be completed prior to performing PIV
     duties; also, the training had not been added into the individuals’ learning plan. We
     reviewed the training records of PIV personnel Agency-wide. We identified the total
     number of personnel assigned as PIV requestors, sponsors, and authorizers, as of
     August 12, 2008, to determine how many had completed the training. NASA policy
     states that individuals assigned a PIV role require training, which is provided through the
     online System for Administration, Training, and Educational Resources for
     NASA (SATERN). The following table details our findings:

                            Staff Completion of SATERN PIV Role Traininga
                                                          PIV Personnel
                                                          Completed SATERN Training
              PIV Role                 Total               Number         Percentage
             Requestor                1,236                   401           32
             Sponsor                    842                   250           30
             Authorizer                  77                    30           39
             a
                 Total number of personnel by PIV role provided by a Project Manager for a PIV
                 system subcomponent. Human Resources personnel provided SATERN training
                 information.

     Training records did not support that roughly 60 to 70 percent of personnel responsible
     for PIV card processing had completed the necessary training. The percentage of
     personnel completing the PIV role training was low because some PIV personnel
     completed training but the training records were not updated to reflect that they had
     completed the training, and PIV personnel we interviewed told us they were unaware the
     training was required. Inadequate training of PIV personnel could result in erroneous
     processing of PIV cards and issuing PIV cards to individuals who do not meet security
     requirements.

     Issuing Badges. Conflicting policy statements and lack of guidance resulted in
     inconsistencies in how Centers issued badges. Specifically, NASA distributed a poster
     that outlined the configurations of temporary and permanent badges and stated that



14                                                                                    REPORT NO. IG-09-015
RESULTS



  temporary badges were effective for less than 180 days; however, NASA Centers issued
  temporary badges with 5-year expiration dates. For example, one Center issued
  43 badges with 5-year expiration dates to Federal Aviation Administration and Army
  personnel detailed to NASA. According to the Center’s HSPD-12 Implementation
  Manager, they were directed not to enroll and process non-NASA personnel for PIV
  cards because they were not employed with or through NASA. Therefore, that Center
  provided temporary badges with extended expiration dates. The NASA HSPD-12 Project
  Director supported the statement and added that NASA would not issue PIV cards to
  individuals from other Federal agencies. However, another Center had enrolled and
  issued PIV cards to 29 Department of Defense employees. The Center’s Implementation
  Manager stated that there was no specific guidance prohibiting the Center from issuing
  PIV cards to non-NASA personnel. What guidance NASA did provide is in the NID,
  section 12.6, “Visitor and Temporary Badging,” where it is noted that

          Visitor and temporary badging is outside the scope of this document and is determined
          by each Center's security office, consistent with pertinent directives. Usually, a set of
          temporary visitor badges are held by the Badging Office and issued on an as-needed
          basis to authorized, temporary, and short-term visitors for appropriate access to NASA
          facilities. Short-term visitors will not receive access to protected logical data systems
          and resources. Individuals who require extensive physical or logical access, but for a
          period less than 6 months will be handled on a case-by-case basis in consultation with the
          Center Chief of Security. Access by visitor and temporary badges will be for bona fide
          purposes, and not used to circumvent the requirements of this Interim Directive.

  Without specific guidance on the issuance and expiration of badges for non-NASA
  Federal Employees, NASA has no assurance that the Centers will use consistent methods
  for issuing badges. The lack of specific NASA guidance relating to issuing HSPD-12
  compliant PIV cards to personnel from other Federal agencies allowed at least one NASA
  Center to disregard NASA’s intent not to issue PIV cards to non-NASA Federal
  employees. Inconsistencies in badge issuance processes constitute noncompliance with
  NASA requirements.


Visibility of Data to Identify Errors and Irregularities

  The PIV system did not provide sufficient data visibility to identify and explain possible
  errors or irregularities when processing PIV cards. An audit trail that details the status of
  PIV requests—including the names of personnel involved in processing the request,
  changes in the status of requests (e.g., change in employment status or personal data), and
  data relating to issuing, rejecting, or terminating access—should be readily available.
  FIPS 201-1, section A.2.3, requires that an audit trail documenting all actions be in place.
  The NASA PIV system did not include a readily available audit trail. For example, the
  system showed that PIV cards for some Headquarters contractor personnel had been
  requested, sponsored, and authorized. However, the PIV system inexplicably changed
  the status to show that the PIV cards had not been requested, sponsored, or authorized.
  Nevertheless, the PIV system showed that these contractor personnel had been enrolled


REPORT NO. IG-09-015                                                                                   15
                                                                                          RESULTS



     even though the system showed the PIV cards had not been requested or sponsored,
     which is a prerequisite to enrollment. NASA security personnel could not provide an
     explanation as to why these conditions occurred. Without a comprehensive audit trail,
     PIV personnel could overlook errors and irregularities when processing PIV cards.
     Unless deficiencies identified are corrected, NASA could increase the risk of issuing PIV
     cards to individuals who have no legitimate need to access NASA facilities or systems


PIV Card Maintenance Processes

     NASA’s focus so far has been on issuing PIV cards to all NASA and contractor
     employees rather than on maintaining the cards. However, PIV card maintenance must
     be integrated into department and agency procedures to ensure effective card
     management. PIV card maintenance includes the following processes:

        •   PIV card renewal is the process by which a PIV card is replaced without the
            cardholder having to repeat the full registration procedure.
        •   PIV card reissuance requires that the entire registration and issuance process,
            including fingerprint and facial image capture be repeated.
        •   Personal identification number reset occurs when the contents of the card are
            locked because the cardholder exceeded the number of attempts to access the
            system by typing an invalid identification number more than the allowed number
            of times stipulated by the Agency.
        •   PIV card termination occurs when the Agency permanently destroys or
            invalidates the card because the cardholder has separated (voluntarily or
            involuntarily) from Federal service, a contractor changes positions and no longer
            needs access to Federal buildings or automated systems, a cardholder is
            determined to be holding a fraudulent identity, or the PIV card itself is revoked.

     The NID includes procedures for renewals, reissuances, personal identification number
     resets, and terminations of PIV cards.

     Since the Agency has not yet focused on card maintenance, including terminations, we
     did not evaluate the adequacy of those efforts. However, we noted a potential area of
     vulnerability in the PIV card termination process that may become significant.
     Specifically, there might be a risk to NASA’s automated systems if contractor employees
     fail to surrender their PIV cards prior to departure from NASA and, thus, retain access to
     NASA facilities and systems. Once the cards have the technical capability to provide not
     only physical access to NASA facilities but also logical access to NASA computer
     systems, the risk of PIV card misuse greatly increases. OIG may evaluate this
     vulnerability at a later date when the PIV cards have logical access capability.




16                                                                         REPORT NO. IG-09-015
RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 4. The Assistant Administrator for the Office of Security and Program
Protection should notify all personnel involved in the PIV process of the requirement to
complete the required training prior to performing their PIV duties and add the training
requirement to the individuals’ SATERN learning plan.

   Management’s Response. OSPP concurred but stated that the Agency Identity
   Management Official (AIMO) had posted training for the various roles in the PIV card
   issuance process on OSPP’s Web site, and individuals performing those roles were
   directed to take that training. Once training was installed in SATERN, individuals were
   directed to SATERN so that training was recorded. However, individuals who had taken
   the training via OSPP’s Web site had not received credit in SATERN. OSPP noted that
   the AIMO will work with appropriate officials to ensure that the OSPP Web site trained
   individuals take training via SATERN and that the training becomes part of each of their
   learning plans as well as part of the training plan for anyone who has a role in the PIV
   card issuance process. OSPP stated it will update OIG one year from April 20, 2009, or
   when the items have been addressed and completed.

   Evaluation of Management’s Response. OSPP’s actions are responsive, and the
   recommendation is resolved but will remain open for reporting purposes until all
   corrective actions have been completed and we have verified completion of those actions.

Recommendation 5. The Assistant Administrator for the Office of Security and Program
Protection should develop and implement NASA policies for issuing temporary badges and
HSPD-12 compliant PIV cards to individuals assigned to NASA locations from other
Federal agencies and establish and include appropriate expiration date guidelines in the
NASA policy for temporary badges.

   Management’s Response. OSPP concurred, stating that the AIMO had taken steps to
   implement procedures for issuance of temporary-workforce badging and limit their use to
   no more than 179 consecutive days. OSPP stated it will update the OIG one year from
   April 20, 2009, or when the items have been addressed and completed.

   Evaluation of Management’s Response. OSPP’s actions are responsive, and the
   recommendation is resolved but will remain open for reporting purposes until all
   corrective actions have been completed and we have verified completion of those actions.

Recommendation 6. The Assistant Administrator for the Office of Security and Program
Protection should modify the PIV system to increase data visibility by modifying the system
and incorporating a single-audit infrastructure that pulls the necessary audit trail data from
the PIV system subcomponents.




REPORT NO. IG-09-015                                                                             17
                                                                                        RESULTS



     Management’s Response. OSPP concurred, stating that a central audit database has
     been configured and auditable information was being transitioned into a new structure.
     OSPP stated it will update OIG one year from April 20, 2009, or when the items have
     been addressed and completed.

     Evaluation of Management’s Response. OSPP’s actions are responsive, and the
     recommendation is resolved but will remain open for reporting purposes until all
     corrective actions have been completed and we have verified completion of those actions.




18                                                                        REPORT NO. IG-09-015
RESULTS




                                            FINDING C: NASA RESPONDS TO
                                                  ISSUES RELATED TO ROLE
                                                            SEPARATIONS

          NASA did not ensure that PIV system operations included proper separation of roles
          and duties. The Assistant Administrator for OSPP assigned the same individual to
          perform both the AIMO and DAA responsibilities because of staffing issues. By
          assigning one person to fulfill AIMO and DAA roles, NASA risked the integrity of
          its assessment and accreditation process and ultimately could put the reliability of
          the NASA PIV card issuer in question. In addition, the PIV system did not prevent
          the same individual from performing the duties of both the PIV card sponsor and
          authorizer. NASA increased the risk of issuing a PIV card to unauthorized
          individuals by allowing one person to sponsor and authorize an applicant’s PIV card
          request.


Federal and NASA Guidance on Separation of PIV Oversight and
  Staffing Roles

  SP 800-79-1 defines the DAA as “an official of the organization with the authority to
  review all assessments of a PIV card issuer and its facilities, and to accredit the PIV card
  issuer as required by HSPD-12.” Through accreditation, the DAA accepts responsibility
  for the operation of the PIV card issuer at an acceptable level of risk to the organization.”
  SP 800-79-1 defines the OIMO (AIMO at NASA) as being “responsible for
  implementing policies of the organization, assuring that all specified procedures of the
  PIV card issuer are being performed reliably, and providing guidance and assistance to
  the PIV card issuer Facilities.” It further states that the OIMO cannot fulfill the role of
  the DAA.

  Similarly, FIPS 201-1, section 2.2, requires that the PIV process adhere to the principle
  of separation of duties assigned to agency PIV personnel to ensure that the same
  individual cannot issue a PIV card without the cooperation of another authorized person.
  In addition, the NID states that an individual cannot be both sponsor and authorizer for
  processing the PIV card of a given applicant.


Dual Assignment Compromised Process Integrity

  NASA assigned the same individual to perform responsibilities of both AIMO and DAA.
  In February 2007, the Senior Agency Official for HSPD-12 implementation assigned the
  Deputy Assistant Administrator for OSPP as DAA and another OSPP official as AIMO.
  However, in June 2008 when the Deputy Assistant Administrator left NASA, the Interim



REPORT NO. IG-09-015                                                                              19
                                                                                             RESULTS



     Assistant Administrator for OSPP reassigned the DAA role to the individual already
     assigned the AIMO role.

     NASA personnel told us that their interpretation of the Federal policies and the lack of
     HSPD-12 knowledgeable personnel resulted in the noncompliance. OSPP officials stated
     that NIST SP 800-79-1 contradicted itself. OSPP officials referred to NIST SP 800-79-1,
     section 2.6.7, which states that while roles are independent and should be filled by
     different people, there may be a need to have one person fill more than one role.
     However, NIST SP 800-79-1, section 2.6.3, clearly states that the OIMO/AIMO cannot
     fulfill the role of the DAA. OSPP officials stated that another reason for appointing one
     person to both positions was staff turnover in OSPP. The office had limited personnel
     who were knowledgeable about the assessment and accreditation required to comply with
     the HSPD-12 mandate. As a result, the Interim Assistant Administrator for OSPP
     assigned the DAA role to the individual already performing the AIMO role for NASA.

     NIST’s assessment and accreditation processes for the card issuer assign AIMO and
     DAA responsibilities to two different individuals to ensure (1) an independent
     determination of the decision to operate the card issuer; (2) effective control activities for
     the Agency’s planning, implementing, reviewing, and accountability for Government
     resources; and (3) achievement of effective results. The results of an assessment are
     presented to the AIMO who reviews the assessment findings and prepares recommended
     corrective actions. By assigning the AIMO and DAA roles to the same person, OSPP
     effectively eliminated a part of NASA’s oversight chain of command for the PIV card
     issuer, thus jeopardizing the integrity of the Agency’s assessment and accreditation
     process.

     On January 12, 2009, the Senior Agency Official for HSPD-12 issued a letter assigning
     the responsibilities of the DAA to the interim Deputy Assistant Administrator, OSPP -the
     interim Deputy Assistant Administrator was assigned to the position on January 4, 2009.
     Therefore, we did not include a recommendation to assign two different individuals the
     responsibilities for performing the AIMO and the DAA functions.


Staffers Acting as Both Sponsor and Approver Identified
  Inadequate Process Controls

     NASA did not have sufficient separation of duties among personnel responsible for
     processing PIV cards. Specifically, controls were inadequate to prevent an individual
     from assuming the roles of both sponsor and authorizer when processing an applicant’s
     PIV card request. The process did include a control in the form of a computer query to
     compare the identity of the sponsor against that of the authorizer for each PIV card
     request. However, this was a manual process—i.e., the PIV system did not automatically
     perform the query; it required PIV personnel to initiate the query. If the same individual
     was both sponsor and authorizer, personnel at Marshall were supposed to reject the



20                                                                            REPORT NO. IG-09-015
RESULTS



  request before ordering the PIV card. Because this control was not automated, there was
  no assurance that PIV personnel performed the computer query.

  PIV staffing roles responsible for issuance of PIV cards have the same need for
  separation of duties to prevent one individual from assuming the roles of both sponsor
  and authorizer when processing an applicant’s PIV card request. PIV roles are as
  follows:

      •   PIV requester creates an initial request for a PIV card for an applicant (civil
          service or contractor employee).
      •   PIV sponsor, a Federal employee, approves the need for the PIV card.
      •   PIV enrollment official collects, establishes, and verifies identity using the
          applicants’ Federal and state picture identification and fingerprints.
      •   PIV authorizer, a Federal employee in the Center’s security office, adjudicates the
          results of the applicant’s background investigation and authorizes the production
          and issuance of the PIV card.
      •   PIV issuance official issues the PIV card to the applicant upon reverification of
          the applicant’s identity.

  We found that personnel at two Centers did not process PIV card requests according to
  policy. Specifically, at one Center, the same individual sponsored and authorized 14 PIV
  card requests; at another Center, the same individual sponsored and authorized 29 PIV
  card requests. Having one person act as both sponsor and authorizer when processing an
  applicant’s PIV card request violates Federal and NASA policy and increases the risk of
  issuing PIV cards to individuals who have no legitimate need to access NASA facilities
  or automated systems. After we brought this to management’s attention, as directed by
  personnel at Marshall, both Centers reprocessed those PIV card requests to comply with
  the separation of duties requirement. In addition, PIV officials upgraded the PIV system
  adding controls to prevent one individual from performing conflicting PIV duties.
  Therefore, we are not making a recommendation regarding separation of duties.




REPORT NO. IG-09-015                                                                            21
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from January 2008 through February 2009 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives. Since we performed the audit during NASA’s PIV card issuance
  phase of HSPD-12 implementation, we focused our work on the Agency’s process for
  issuing PIV cards. We did not perform audit work on NASA’s process for maintaining
  PIV cards because the Agency’s processes were not mature enough.

  We performed the following audit procedures:

     •   reviewed Federal and NASA guidance including HSPD-12, FIPS 201-1;
         NIST SP 800-79; NIST SP 800-79-1; NPD 1200.1E; NPD 2800.1; NPD 2800.1A;
         NPD 2800.1B; NPR 2800.1; and NPR 1600.1, which included the NID for PIV
         policies and procedures;
     •   interviewed key NASA personnel including the Agency HSPD-12
         Implementation Manager, HSPD-12 technical personnel at Marshall, and Center
         security officials responsible for the PIV card process at NASA Headquarters,
         Ames Research Center (Ames), and Johnson Space Center (Johnson ), to
         understand NASA’s approach for complying with HSPD-12;
     •   reviewed the adequacy of the assessment and accreditation of the PIV card issuer;
     •   conducted an initial survey of the PIV card process at Headquarters, Ames, and
         Johnson;
     •   observed processing of PIV cards at Headquarters, Ames, and Johnson;
     •   evaluated the PIV system controls through interviews with and demonstrations
         provided by Marshall’s HSPD-12 technical personnel;
     •   issued a questionnaire to all Center security officials to obtain information about
         the Centers’ practices for issuing temporary identification cards to newly hired
         employees, reissuing PIV cards to replace lost or expired ones, and collecting and
         terminating the PIV cards of departed employees;
     •   determined whether the PIV system provides sufficient data visibility needed by
         personnel to properly process PIV cards; and


REPORT A-08-009-00                                                                             23
                                                                                       APPENDIX A



        •   selected statistical samples of PIV cards issued to recently hired personnel at each
            NASA Center and determined whether the Centers’ processed PIV cards in
            accordance with Federal and NASA policies.

     Use of Computer-Processed Data. We used listings generated by the PIV system to
     select samples of issued, reissued, and terminated PIV cards for review. To assess the
     accuracy and completeness of those listings, we compared them to other listings (e.g.,
     from human resource organizations) generated outside of the PIV system. We found
     inconsistencies among the listings but determined that they have minimal impact on the
     integrity of our sample selection process.


Review of Internal Controls

     We determined whether the PIV system contains built-in system controls to ensure the
     processing of PIV cards is in accordance with Federal laws and NASA policies. We also
     reviewed the PIV process to ensure proper separation of duties among personnel
     responsible for processing PIV cards. Overall, controls were adequate. However, as
     reported in the third finding, we noted a minor deficiency regarding the PIV system’s
     ability to ensure separation of duties for the PIV sponsor and PIV authorizer roles, which
     NASA took actions to correct during the audit.


Prior Coverage

     During the last 5 years, the Government Accountability Office (GAO) issued two reports
     of particular relevance to the subject of this report. Unrestricted reports can be accessed
     over the Internet at http://www.gao.gov.

     “Additional OMB Leadership Needed to Optimize Use of New Federal Employee
     Identification Cards” (GAO-08-292, February 2008).

     “Agencies Face Challenges in Implementing New Federal Employee Identification
     Standard” (GAO-06-178, February 2006).




24                                                                          REPORT NO. IG-09-015
APPENDIX B




                       MANAGEMENT COMMENTS




REPORT NO. IG-09-015                         25
              APPENDIX B




26   REPORT NO. IG-09-015
APPENDIX B




REPORT NO. IG-09-015   27
                                                                                   APPENDIX C




                                                           REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Chief Information Officer
     Assistant Administrator, Office of Security and Program Protection

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Defense, State, and NASA Financial Management, Office of Financial
           Management and Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Space, Aeronautics, and Related Sciences
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Management, Organization, and Procurement
     House Committee on Science and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




28                                                                        REPORT NO. IG-09-015
Major Contributors to the Report:
   Wen Song, Director, Information Technology Directorate
   Denise Saenz, Project Manager
   Mario Carbone, Project Manager
   Bessie Cox, Team Lead
   Howard Kwok, Auditor
   Bret Skalsky, Auditor
   Chris Reeves, Technical Specialist
   Janet Overton, Editor




REPORT No. IG-09-015                                        29
                                                                                       APRIL 27, 2009
                                                                        REPORT NO. IG-09-015




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY09 to obtain additional copies of this report, or contact the
Assistant Inspector General for Auditing at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Ms. Jacqueline White, Quality Assurance
Division Director, at Jacqueline.White@nasa.gov or call 202-358-0203.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Auditing
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
